%
•>
3 ■» I

4J

IN THE

SUPREME COURT OF THE UNITED STATES
CECIL WALTER SALYERS, Pro Se

PETITIONER
v.

COMMONWEALTH OF KENTUCKY

RESPONDENT

II
On Petition For Writ Of Certiorari
To The Kentucky Court Of Appeals

l;

sa

FILED
OCT 1 k 2023
suprem^Fco u rtLu

PETITION FOR WRIT OF CERTIORARI

Cecil Walter Salyers,
Roederer Correctional Complex
P.O. Box 69
LaGrange, KY 40031
(502) 222-0173

-.I!.

QUESTIONS PRESENTED
Did the Kentucky Court of Appeals correctly interpret the Sixth, Amendment
in holding Petitioner “cannot demonstrate prejudice under Strickland’, when
counsel’s ineffectiveness resulted in'Petitioner’s sentences being ran consecutively'
when they would have otherwise been concurrent?

'
i

v

1

I

-LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
Salyers v. Commonwealth, No. ll-CR-249 and 12-CR--l.il, Hopkins Circuit
Court, Judgement Entered March 18, 2014
Salyers v. Commonwealth, No..2014-SC-186-MR, Kentucky Supreme-Court,
Opinion Rendered May 14, 2015.
V'

Salyers v. Commonwealth, No. 2017-CA-987-MR, Kentucky Court of Appeals,
Opinion Rendered January 10, 2020.
Salyers v. Commonwealth, No. 2020-SC-48-D, Kentucky Supreme Court,
Decided July 1, 2020.
r

TABLE OF CONTENTS
Questions Presented

.1

List of Parties

2

Related Cases

2

Table of Contents

2,3

Cited Authorities

3

Jurisdiction

4

Constitutiohal and Statutory Provisions Involved
Statement of the Case
Reasons for Granting the Petition
Conclusion

4,5
5*7
8-10
10,11

2

.

Appendix

12
CITED AUTHORITIES

28 U.S.C. § 1257(a).................................... .

4

Andrus v. Texas, 140 S. Ct. 1875 (2020)..,

9

Cox v. State, 2011 Tex. App. LEXIS 9197

9

Crockett v. McCotter, C.A. 5 (Tex), 796 F. 2d 787 (1986)

8

Federalist No. 22

.,..10

Fourteenth Amendment to the United States Constitution

4,5

Gardner v. Florida, 430 U.S. 349, 358 (1977).....

8

• Kansas v. Marsh, 548 U.S. 163 (2006)
!

8

Mempav. Rhay, 389 U.S. 128 (1967)

8

Nix v, Whiteside, 475 U.S. 157 (1986)

8

Opinion Affirming Rendered January 10, 2020... .
Order Denying RCr 11.42 Entered May 4, 2017

App. 9-21
App. 1, 2

Order Denying Review Entered July 1, 2020

App. 22

Order Supporting Denial of RCr 11.42 Entered May 10, 2018............

App. 3-8

Salyers v. Commonwealth, 2020 Ky. App. Unpub. (Ky. App. 2020)....

6, 7, 9, 10

Sears v. Upton, 561 U.S. 945 (2010)............................................ .............

9

Sixth Amendment to the United States Constitution

4

Specht v. Patterson, 386 U.S. 605 (1967)

8

Strickland v. Washington, 466 U.S. 668 (1984)........

8, 10

United States v. Smith, 101 F. Supp. 2d 332 (2000)

9

3

,...4

U.S. Supreme Court Order entered March 19, 2020
JURISDICTION

The Kentucky Supreme Court Denied Discretionary Review on July 1, 2020.
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a)
' !

“Final judgments or decrees rendered by the highest court
of a State in which a decision could he had, may be
reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United ■
States is drawn in question or where the validity of a
statute of any. State is drawn in question on the ground of
its being repugnant to the Constitution, treaties, or laws
of the United States, or where any title, right, privilege,
or immunity is specially set up or claimed under the
Constitution
or the treaties
or statutes of, or any
•
.•
>
‘ commission held or authority exercised under, the United
States.”
This Petition is timely filed pursuant to this Court’s Order Entered March 19,..
2020, extending the deadline to file a Petition for a Writ of Certiorari from 90 to 150
days.
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the United States Constitution,
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Fourteenth Amendment to the United States Constitution, Section 1
4

“All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States,’ nor shall any State deprive any person of life,
liberty, or property, without due process of law! nor deny
to any person within its jurisdiction the equal protection
of the laws.”
STATEMENT OF THE CASE
On September 28, 2011, Petitioner was indicted by a Hopkins County,
Kentucky Grand Jury in case number ll-CR-249 for three counts of first-degree
sexual abuse of a minor less than twelve years old, two counts of first-degree sexual
abuse of a minor less than sixteen years old, five counts of using a minor in a sexual
performance, one count of indecent exposure, and one count of unlawful transaction
with a minor in the third degree. On April 24, 2012 he was indicted in case number
12-CR-lll for first-degree sexual abuse. The two indictments were consolidated and
tried together. The first trial resulted in a mistrial. The second trial resulted in
Petitioner’s conviction for four counts of first-degree sexual abuse, two counts of
using a minor in a sexual performance; and third-degree unlawful transaction with
a minor.
The jury recommended twenty years under Instruction 6 and fifteen years
under Instruction 7, concurrently for a total of twenty years. Ten years each under
Instructions 2, 3, & 4, and five years under Instruction 5, consecutively for a total of
35 years. The jury made no recommendation whether the twenty years under
Instructions 6 and 7 and the 35 years under Instructions 2, 3, 4 and 5 should run
consecutively or concurrently.
5

Defense counsel raised the issue and a bench conference was held, wherein
both attorneys agreed that that the jury should be sent back into deliberation to
determine if the sentences should run concurrently or consecutively. The jury
reentered deliberation and returned a recommendation that they run consecutively.
However, had counsel not raised the issue the sentences would have been presumed
concurrent and Petitioner would have been sentenced to twenty years, instead of
the forty year sentence he ultimately received.
Petitioner appealed to the Kentucky Supreme Court, which affirmed his
conviction. He then filed a motion to, vacate his sentence pursuant to Kentucky
Rules of Criminal Procedure Rule 11.42, arguing, inter alia, that counsel was
ineffective in raising the issue and then agreeing to allow the jury to return to
deliberations, ultimately resulting in his receiving a 40 year sentence when he
otherwise would have received a, 20 year sentence. The court denied his motion
claiming it found “no reference, to any. specific instanced of deficiency of counsel.”
(See May 4, 2017 Order and May 10, 2018 Order p. 5, in Appendix).
Petitioner appealed this denial to the Kentucky Court of Appeals, arguing to
the court of appeals, that the trial court abused its discretion in denying his motion.
However, the court of appeals affirmed the denial of his motion but opined in part,
“The law has been in the Commonwealth that if a
judgment is silent as to concurrent or consecutive
sentence, the sentence presumed concurrent. Had the jury
not been sent out to make a determination as to whether
the sentence should be concurrent or consecutive, the
sentence would have been presumed concurrent. This
would have obviously alleviated any possible error by the
prosecutor's comment, but after the comment was made
6

defense counsel agreed the jury should be returned to
deliberate to make a recommendation as to concurrent or
consecutive sentences. (Record on Appeal, pp.-531-32). On
March 18, 2014, the circuit court entered its judgment
and sentence and sentenced Salyers to a total term of
imprisonment of forty (40) years from both indictments.
We agree with the circuit court that there would no
purpose in having an evidentiary hearing. Moreover,
Salyers cannot demonstrate prejudice under Strickland.
{Salyers v. Commonwealth, 2020 Ky. App. Unpub. (Ky.
App. 2020) Id. at 13). XSee Opinion in Appendix).
Petitioner then sought discretionary review by the Kentucky Supreme Court,
calling attention to the fact that all three courts—the Plop kins Circuit Court, the
Kentucky Court of Appeals, and the Kentucky Supreme Court—have made
conflicting

and

contrary

i.

statements

concerning
'

the

concurrent/consecutive

■

sentences. Specifically, Petitioner argued “[t]he Kentucky Court of Appeals abused
its discretion when, in one sentence it admits ‘had the jury not been sent out to
make a determination as to whether the sentence should be concurrent or
consecutive, the sentence would have been presumed concurrent’, and in the next
sentence it ‘agree[s] with the circuit court that there would no purpose in having an
evidentiary hearing. [And claims Petitioner] cannot demonstrate prejudice under
Strickland.’” (See Salyers v. Commonwealth, 2020 Ky. App. Unpub. (Ky. App. 2020)
Id. at 13; Opinion in Appendix). Nonetheless, the Kentucky Supreme Court denied
discretionary review.
Petitioner now brings this Petition for a Writ of Certiorari.

7
v

REASONS FOR GRANTING THE PETITION
!

■

In Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984) -this Court held that in order for counsel’s inadequate performance to
constitute a Sixth Amendment violation, Petitioner must show that counsel’s
failures prejudiced him. This Court also made clear that to establish prejudice, a
!

“defendant must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine the confidence in the
outcome.” Id at 694. However, Petitioner need not show that counsel’s performance
more likely than not altered the outcome. {Nix v. Whiteside, 475 U.S. 157 (1986)).
1

■’

‘

' 'v

In order to invalidate a sentence, Petitioner must show both deficient
performance by counsel and prejudice such that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result would have been different.
{Crockett v. McCotter, C.A. 5 (Tex), 796 F. 2d 787 (1986)). This Court has also held
that “sentencing is a critical proceeding at which he is entitled to the effective
assistance of counsel. Mempa v. Rhay, 389 U.S. 1285 Specht v. Patterson, 386 U.S.
605.” {Gardner v. Florida, 430 U.S. 349, 358 (1977)). In Kansas v. Marsh, 548 U.S.
163 (2006), concurring opinion by Scalia, Justice Scalia wrote,
Our solemn responsibility is not merely to determine
whether a state supreme court “ha[s] adequately
protected [a defendant’s] rights under the Federal
Constitution,” Post, at 200, 165 L. Ed. 2d, 429, 458, 126 S.
Ct. 2516 (Stevens, J., dissenting). It is to ensure that
when courts speak in the name of the federal constitution,
they disregard none of its guarantees- neither those that
ensure the rights of criminal defendants,”. Id at 185.

•%

8

In Andrus v. Texas, 140 S. Ct. 1875 (2020), this Court recently granted
certiorari, vacated the judgement, and remanded for further proceedings, although
the lower court held that the Petitioner “could not show counsel’s deficient
performance prejudiced him.” Id at 1881. In Cox v. State, 2011 Tex. App. LEXIS
9197 the Court of Appeals of Texas, Second District, Fort Worth remanded for
resentencing where counsel was ineffective in misstating the law on stacking
sentences. Although, in this case counsel did not misstate the law, he clearly
showed a misunderstanding of the law,' and his misunderstanding ultimately
prejudiced the Petitioner.
In the case at bar, counsel should have known that because the jury
remained silent on whether Petitioner’s sentences were concurrent or consecutive,
the sentences would have been concurrent. (See Salyers v. Commonwealth, 2020
Ky. App. Unpub. (Ky. App. 2020) Id. at 13! Opinion in Appendix). (See also United
States v. Smith, 101 F. Supp. 2d 332 U.S.D.C. W.D.°Penn. (2000) (court granted
habeas motion where counsel was ineffective at sentencing resulting in consecutive
sentences.)) In Sears v. Upton, 561 U.S. 945 (2010), this Court vacated and
remanded because it was “plain from the face of the state court’s opinion that it
failed to apply the correct prejudice inquiry”. Id at 946. The state court curtailed a
“more probing prejudice inquiry because it placed undue reliance on the assumed
reasonableness of counsell]”. Id at 953.

9

The holding in this case by the Kentucky Court of Appeals, that Petitioner
. “cannot demonstrate prejudice under Strickland’ is directly contrary to its
statement a few sentences prior where it said,
“The law has been in the Commonwealth That if a
judgment is silent as to concurrent or consecutive
sentence, the sentence presumed concurrent. Had the jury .
not been sent out to make a determination as to whether
the sentence should be concurrent or consecutive, the
sentence would have.been presumed concurrent.”
The holding by the Kentucky Court of Appeals is inconsistent with this
Court’s holding in Strickland, as well as other courts across the nation. It also
shows the Kentucky Court of Appeals’ and the Kentucky Supreme Court’s ignorance
of and disregard for the Sixth Amendment. Petitioner can clearly demonstrate that
his counsel’s deficient performance at sentencing prejudiced him and resulted in a
C
harsher sentence than he otherwise would have received.
1
CONCLUSION
“If there is in each state a court of final jurisdiction, there
may be as many different final determinations on the
same point as there are courts. There are endless
diversities in the opinions of men. We often see not only
different courts but the judges of the same court differing
from each other. To avoid the confusion which would
unavoidably result from the contradictory decisions of a
number of different judicatories, all nations have found it
necessary to establish one court paramount to the rest,
possessing a general superintendence, and authorized to
settle and declare in the last resort a uniform rule of civil
justice. This is the more necessary where the frame of
government is so compounded that the laws of the whole
are in danger of being contravened by the laws of the
parts” (Alexander Hamilton, Federalist No. 22, December
14, 1787).

10

Petitioner respectfully requests this Honorable Court exercise it’s duly given
authority and Grant this Petition for a Writ of Certiorari. Petitioner strongly urges
this Court not to let the Justices of today’s courts alter and abolish the principles of
liberty and justice which our Founding Father’s established as a cornerstone of the
American justice system.

i

Respectfully submitted,
)

Cecil Salyers, Petffraner^ Pro Se
Roederer Correctional Complex
P.O. Box 69
La Grange, KY 40031

11

(zj

APPENDIX
App. 1, 2

Order Denying RCr 11.42 Entered May 4, 2017..
Order Supporting Denial of EOr 11.42 Entered May 10, 20i8
Opinion Affirming Rendered January 10, 2020

App. 9-21

Order Denying Review Entered July 1, 2020

\

App. 3-8

App. 22

J

\

i

12

